No. 20-659

 

IN THE

Supreme Court of the Anited States

LARRY THOMPSON,

Petitioner,
Vv.

POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF FOR RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
10,828 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 16, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
